                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

 Case Number: 113020010                                                                      Page 1 of 1



         Our office opened this case on a company 1 based on a proactive review2 . Questions arose
         concerning the Phase I, IB, and II SBIR awards 3 to the company. The information provided by
         the company and the records that were subpoenaed4 showed that the company had adequate
         facilities, that there were no unallowable expenses, and that the company's supporting
         investments were legitimately received.

         Our investigation did reveal inconsistencies in the PI's 5 listed employment history and in the
         company's timesheets. Accordingly, the company and PI were warned to fully and accurately
         disclose all relevant information in future submissions.

         Accordingly, this case is closed with no further action taken.




         I
         2


         4




NSF OIG Form 2 (11/02)
